OIG Investigative Reports, Deborah D. Jenkins, Indicted by a Federal Grand Jury in Hawaii in October, 2004
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
U.S. Department of Justice
United States Attorney
District of Hawaii
FOR IMMEDIATE RELEASE
Wednesday June 22, 2005
PRESS RELEASE
Deborah D. Jenkins, indicted by a federal grand jury in Hawaii in October,
2004 along with her husband, Paul O. Jenkins, for identity theft, bank theft,
and conspiracy, was arrested today in Orlando, Florida. Mrs. Jenkins had been
a fugitive since her indictment..
Edward H. Kubo, Jr., United States Attorney for the District of Hawaii, said
the indictment alleges that in February 2002, while registered as a student
at the University of Hawaii, Jenkins submitted a "Nellie Mae" Loan Application
containing fraudulent information to State Street Bank and Trust Company in
Braintree, Massachusetts.
According to U.S. Attorney Kubo, "ID theft gives criminals the means, the opportunity,
and the incentive to steal from innocent victims while avoiding detection and
arrest. Because of the nature of these crimes, my office will continue to vigorously
prosecute these offenses in federal court.
United States Attorney Kubo commended the U. S. Department of Education Office
of the Inspector General and the U.S. Secret Service who conducted the investigation.
The Florida Highway Patrol assisted in the investigation. The prosecution is
being handled by Assistant U.S. Attorney Michael Purpura.
United
States Attorney, District of Hawaii
Printable view
Share this page
Last Modified: 07/11/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov